<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS STATUS REPORT ON POST-9/11 GI BILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




               U.S. DEPARTMENT OF VETERANS AFFAIRS STATUS
                      REPORT ON POST-9/11 GI BILL

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

                           Serial No. 111-51

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-436                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  Subcommittee on Economic Opportunity

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                               __________

                            October 15, 2009

                                                                   Page
U.S. Department of Veterans Affairs Status Report on Post-9/11 GI 
  Bill...........................................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    20
Hon. John Boozman, Ranking Republican Member, prepared statement 
  of.............................................................    21

                               WITNESSES

U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Office of Education Service, Veterans Benefits Administration..    21
    Prepared statement of Mr. Wilson.............................     2

                       SUBMISSIONS FOR THE RECORD

Iraq and Afghanistan Veterans of America, Patrick Campbell, Chief 
  Legislative Counsel, statement.................................    24
Klein, Hon. Ron, a Representative in Congress from the State of 
  Florida, statement.............................................    28
Pennsylvania Association of Private School Administrators, 
  statement......................................................    29

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunities, Committee on Veterans' Affairs, to 
  Keith M. Wilson, Director, Office of Education Service, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs, letter dated October 19, 2009, and VA responses.......    30

 
               U.S. DEPARTMENT OF VETERANS AFFAIRS STATUS
                      REPORT ON POST-9/11 GI BILL


                       THURSDAY, OCTOBER 15, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Perriello, Adler, 
Kirkpatrick, Teague, Boozman, Moran, and Bilirakis.
    Also Present: Representatives Mitchell and Snyder.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity Oversight Hearing on the U.S. Department of 
Veterans Affairs' (VA's) Status Report on the Post-9/11 GI Bill 
will come to order.
    I would like to state that the Iraq and Afghanistan 
Veterans of America (IAVA) and Congressman Ron Klein of Florida 
have asked to submit written statements for the hearing record. 
I ask for unanimous consent that their statements be entered 
for the record.
    Hearing no objection, so ordered.
    [The prepared statements of IAVA and Congressman Klein 
appear on p. 24 and p. 28.]
    Ms. Herseth Sandlin. I ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks and that written statements be made part of the record.
    Hearing no objection, so ordered.
    Joining us today at the dais is Representative Harry 
Mitchell of Arizona, who chairs the Committee on Veterans' 
Affairs Subcommittee on Oversight and Investigations, and also 
joining us may be Congressman Vic Snyder of Arkansas who chairs 
the Armed Services Committee, Subcommittee on Oversight and 
Investigations. Both distinguished gentlemen are Members of the 
full Committee. I ask for unanimous consent that they be 
allowed to participate in today's Subcommittee hearing.
    Mr. Mitchell is here, and hearing no objection, so ordered.
    Mr. Snyder will join us at the dais when he arrives, and I 
know that the Chairman of the full Committee may be joining us 
at some point, as well.
    Today, we seek to administer our oversight jurisdiction on 
the VA's implementation efforts of the Post-9/11 GI Bill. I 
expect this hearing will provide the VA the opportunity to 
update us on recent actions taken to address delays in the 
distribution of education benefits, and its plan moving forward 
to ensure the same mistakes do not occur in the future.
    To date, our main focus has been to ensure VA has the 
resources to upgrade its information technology (IT) to support 
the unique demands of the Post-9/11 GI Bill. Furthermore, we 
have actively requested that VA appropriately alert us of any 
shortfalls in resources to successfully complete its mission, 
to include legislative changes that must be made by this 
Subcommittee.
    Today we are seeking assurances that the VA has sufficient 
resources to meet all its goals and demands placed upon it by 
Public Law 110-252. Unfortunately, the past few weeks have shed 
some light on the shortcomings facing the VA and how it must 
improve the way it processes education claims.
    Yesterday we had the pleasure of welcoming Secretary Eric 
Shinseki to the full Committee so that he could highlight VA's 
accomplishments and some of the unmet goals. I appreciate the 
Secretary's sincere commitment to provide our Nation's veterans 
with the best resources in a timely manner.
    I share this strong commitment and applaud actions taken by 
the VA to address the current backlogs in the distribution of 
education benefits. While this is commendable, more forethought 
should have been given to the emergency check solution to 
address any potential problems.
    I know that the Ranking Member is in another hearing and 
hopes to join us soon. When he does, we will recognize him for 
his opening remarks. But at this point, we will just make them 
a part of the hearing record and I would ask for any other 
Member of the Subcommittee or our guests joining us on the 
dais, to submit any opening remarks they may have for the 
record. That way we can hear directly from Mr. Wilson and get 
straight to all of the questions that I know we will have for 
Mr. Wilson today.
    [The prepared statement of Congressman Boozman appears on 
p. 21.]
    Ms. Herseth Sandlin. Thank you, Keith, for appearing before 
the Subcommittee once again. Mr. Keith Wilson is the Director 
of the Office of the Education Service, Veterans Benefits 
Administration (VBA) of the U.S. Department of Veterans 
Affairs.
    You have taken time to brief me prior to this hearing and 
staff as well, and we look forward to hearing from you. You are 
now recognized, Mr. Wilson.

  STATEMENT OF KEITH M. WILSON, DIRECTOR, OFFICE OF EDUCATION 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Mr. Wilson. Thank you. Good afternoon, Chairwoman Herseth-
Sandlin, Ranking Member Boozman, and other Members of the 
Committee. I appreciate the opportunity to appear before you 
today to discuss the status of the Post-9/11 GI Bill 
implementation. My testimony will address the challenges we 
face, the current status of education claims, workload trends, 
and countermeasures we are taking to alleviate delays in 
processing.
    Enactment of the Post-9/11 Educational Assistance Act on 
June 30, 2008, gave VA approximately 14 months to develop a 
new, highly complex system to ensure eligibility and payments 
are made for hundreds of thousands of claimants who would be 
eligible to receive benefits under the new program beginning 
August 1st of 2009.
    To meet this challenge VA began accepting applications to 
determine eligibility to the benefit on May 1st of 2009. On 
July 6, 2009, we started accepting enrollment certifications 
from schools and began processing claims for payment. The first 
payments were disbursed by the U.S. Treasury on August 3, 2009.
    Since May 1st of 2009, approximately 275,000 individuals 
have applied for eligibility under the Post-9/11 GI Bill; 
213,000 individuals have been deemed eligible and provided a 
certificate of eligibility. Of the estimated 82,500 enrolled 
students, approximately 52,500 have received payments under the 
Post-9/11 GI Bill.
    During the same time, VA has paid benefits to over 160,000 
additional veterans under other VA education programs. 
Additionally, VA has paid 52,000 veterans under its newly 
implemented Advanced Payment Process.
    Veterans have experienced both good service and poor. We 
believe our efforts to implement this program and our responses 
to the challenges we have experienced will ensure that the 
Post-9/11 GI Bill will live up to its full promise.
    Post-9/11 GI Bill claims currently require manual 
processing using four separate IT systems that do not interface 
with each other. When an application or enrollment 
certification is received, the documents are captured into The 
Image Management System, TIMS. The documents are routed 
electronically to a claims examiner for processing. The claims 
examiner reviews the documents and determines the student's 
eligibility, entitlement, and benefit rate by manually entering 
information into the Front End Tool, the FET.
    The FET is used to calculate the additional information 
needed to determine payments for students. However, the FET has 
limited capability for processing multiple scenarios 
encountered in determining eligibility and entitlement under 
the new program. As a result, VBA, in conjunction with MITRE 
Corporation, developed multiple job aids, or out-of-system 
tools and spreadsheets, to augment claims processing.
    Once the benefit rate and payment amounts are determined, 
the claims examiner manually enters the payment information 
into the Back End Tool (BET) separately for each payment type 
required. The BET utilizes the existing Benefits Delivery 
Network to issue payments. A payment cannot be processed until 
at least two individuals approve the award and payment amount.
    Evidence to support the award action taken by the claims 
examiner and a senior claims examiner is captured for record 
purposes in TIMS. This payment authorization process is 
completely separated for the housing allowance, the tuition and 
fees payment, and the books and supplies payments.
    When all action is complete, the claims examiner manually 
transcribes most information into an award letter that is sent 
to the student, providing them important information about 
their benefit.
    Due to lack of integration among the systems, the time to 
process Post-9/11 GI Bill claims is significantly longer than 
processing time for other education benefits. Currently, it 
takes approximately 1\1/2\ hours to process one original claim 
under the Post-9/11 GI Bill.
    Phase three of the interim solution will provide increased 
functionality for processing Post-9/11 GI Bill claims. It was 
originally scheduled for deployment in September 2009. Due to 
the complexity involved in processing both amended awards and 
overlapping terms, phase three is now scheduled for deployment 
in early November of 2009.
    Claims processing under our education programs increased by 
180,000 claims over the same period last year due to, in 
significant part, to the large number of requests for 
Certificates of Eligibility under the Post-9/11 GI Bill. The 
net increase in students is approximately 70,000.
    VA anticipated the majority of students would transfer from 
the Montgomery GI Bill (MGIB) and Reserve Educational 
Assistance Program (REAP) to the Post-9/11 GI Bill during the 
beginning of the Fall 2009 enrollment period. However, that has 
not happened.
    Instead, we have seen a slight decrease in the number of 
students receiving benefits under the Montgomery GI Bill and 
REAP, compared to the same period last year.
    We also expected the majority of veterans applying for the 
Certificate of Eligibility for the Post-9/11 GI Bill over the 
summer would start school during the fall enrollment period. 
Instead, many may have applied for the new program to receive 
an eligibility determination, but will enroll in school at some 
point in the future.
    In order to meet the challenge, VA, since May, has hired an 
additional 230 staff, implemented a mandatory overtime policy, 
redirected over 70 staff from non-claims processing work 
directly into claims processing work, as well as other 
initiatives as outlined in my written testimony.
    Regardless, we are not serving veterans timely in all 
cases. In response, the Secretary authorized issuance of 
advance payment to students enrolled in school who have not 
received their benefits.
    On October 2nd, 2009, VA began issuing advance payments to 
students in the amount of up to $3,000 per individual. In the 
first week, VA made advance payments to over 41,000 students, 
totaling approximately $120 million.
    VA looks forward to engaging in a dialog with Congress and 
our stakeholders to improve administration of the Post-9/11 GI 
Bill. Thank you, this Committee, as well as all of Congress, 
for the continued support you have provided throughout this 
effort.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions that you or other Members of 
the Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 21.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson.
    In news reports there have been a lot of statements and 
quotes with regard to hundreds of thousands of veterans waiting 
for benefits. You went through the numbers in the beginning of 
your testimony in terms of those who sought Certificates of 
Eligibility starting at the May 1st timeline and then those 
that ultimately enrolled where the VA was getting back once the 
Certificate of Eligibility was sent. What is the difference in 
the numbers of those that have actually enrolled?
    Can you address this concern that hundreds of thousands of 
veterans may be awaiting benefits?
    Mr. Wilson. This is one thing that we have been challenged 
with from a communication perspective for a while now. We, I 
think, incorrectly continued to communicate the way we 
traditionally have concerning claims processed, what type of 
claims they are and we did not do a good job of focusing on the 
student, the number of individuals that we are paying benefits 
to.
    And unfortunately, we did not do a good job of educating 
people on what the differences are. A claim does not equal a 
student. On average, one claim or one student will generate 
about two and a half to three claims a year based on their 
training time, how many periods they enroll, whether they 
change training, et cetera.
    Additionally, the number of Certificates of Eligibility 
that we have provided represent individuals that are interested 
in knowing that they are eligible, and at that point have just 
simply indicated that they plan to use the benefit at some 
point in the future.
    The number of individuals that we have actually paid, which 
as you have rightly pointed out, is significantly different 
from that number, are the people that are actually enrolled in 
school right now.
    The delta between the two, the difference between the two, 
is in excess of 100,000. That's not necessarily indicative of a 
problem, but it is different than the behavior that we have 
seen in our student population previously.
    Normally, individuals will come in and apply for the 
benefit at the point that they are ready to begin using it. And 
based on the student enrollment versus the number of people 
that have applied for eligibility, that doesn't seem to be 
occurring currently.
    Ms. Herseth Sandlin. Has the VA heard of any veteran having 
problems, understanding the explanation you just provided, in 
terms of getting benefits? There was a Certificate of 
Eligibility that was applied for that didn't necessarily 
translate for every veteran or individual who is deemed 
eligible for the benefits, such as dependents to whom they can 
transfer those benefits.
    Have you heard any complaints that veterans have actually 
been denied permission to attend courses for which they have 
enrolled because benefits haven't been paid?
    Mr. Wilson. We have not. In fact, we began an effort early 
on to contact schools directly, and that is one of the 
questions that we specifically asked in addition to the 
outreach that we had been doing with the schools from the 
beginning on this.
    We are aware of no schools where students are being 
disenrolled due to that process.
    Ms. Herseth Sandlin. Let us talk about that outreach to the 
schools. I appreciate that you reached out to the schools as it 
related to this particular anticipated issue in terms of the 
delay in which some States were determining tuition rates. Then 
there is the issue of getting to the VA and VA being able to 
get the tuition out and the differences in terms of getting 
that information to schools, whether it is right away in 
enrollment, add/drop, after add/drop period, et cetera.
    The issue of outreach prior to the fall semester starting, 
we have repeatedly heard from veterans believing that their 
housing allowance would be issued to them at the beginning of 
the month, or that this would be paid ``up front.'' What is 
creating this disconnect?
    Mr. Wilson. We have heard that as well. First, let me 
clarify in terms of how it is paid. The monthly housing benefit 
is paid in the same manner as VA education benefits are paid 
under the other existing programs in that it is paid in 
arrears, at the end of the month, following the month of 
attendance.
    And this is quite honestly speculation, the tuition payment 
is paid to the school at the beginning of the semester, a 
housing allowance. I'm sorry, the book and supply stipend is 
paid to the student at the beginning of the semester.
    I think it would be logical for some individuals to make a 
connection between the manner in which those payments are made 
and the manner in which they would presume that the housing 
allowance would be paid.
    Ms. Herseth Sandlin. Before recognizing other Members, and 
we will have another round of questions for everybody, 
yesterday at our full Committee hearing when Secretary Shinseki 
was testifying, we heard from several Members that were 
proposing legislative fixes to make your job easier in the 
future. You described it in your written and oral testimony 
today that you are laying the groundwork for the long-term IT 
solution. You are also dealing with legacy systems and we had 
the recession affecting States and their decisions, and so, 
some factors and variables which, in a perfect world, we would 
have anticipated and had you prepared for absolutely every 
possible scenario.
    But we do know that many Members are interested in 
streamlining the administration of all of the education 
benefits. I don't know if you are prepared to say which 
legislative fixes you would endorse today or if you are 
starting to give those thought, but any suggestions?
    Mr. Wilson. We are giving that a lot of thought. Clearly, 
there are issues that have been discussed that conceptually are 
very appealing, paying housing allowances in advance has been 
talked about as a possibility, delinking the tuition payment to 
the schools with the need to get the housing allowance payment 
out as quickly as possible to students, et cetera.
    And I would agree that those are appealing from a 
conceptual perspective. The challenge, I believe, will be 
making sure that any legislative fixes are immediately 
implementable, taking into account the issues that you rightly 
brought up concerning the legacy systems that we have in place, 
the limitations in our short-term initiative that we are 
currently, essentially locked into to process claims.
    One thing we absolutely don't want to do is make the 
situation worse.
    [The VA subsequently provided additional information in the 
answer to Question #10 of the Post-Hearing Questions and 
Responses for the Record, which appears on p. 32.]
    Ms. Herseth Sandlin. Mr. Teague?
    Mr. Teague. Yes. Thank you, Madam Chairwoman, for having 
this hearing and for letting me ask a few questions. I did have 
some concerns. Are there things in place or in the works to 
where we tie these systems together? We are not going to 
continually have four IT systems that don't communicate with 
each other, are we?
    Mr. Wilson. No, we are not. We have pursued two past 
concurrently as we have implemented this program, knowing we 
didn't have the time to implement a fully automated system. We 
stood up an effort to put in place the minimal that we needed 
to get checks out the door.
    Concurrently with that, though, we have had a process going 
from the beginning to develop a fully automated rules-based 
system that will have full deployment currently scheduled for 
December of 2010.
    Now, the first scheduled deployment of that long-term 
solution is scheduled for March/April timeframe of 2010. That 
will essentially replace what is currently being called the 
Front-End Tool and the job aids. So there's not a huge amount 
of additional functionality, but it will make the claims 
examiners' lives a lot easier by consolidating everything into 
a more friendly user interface Web-based tool. But ultimately, 
we do have that initiative to go to an automated mechanism to 
process this work.
    Mr. Teague. We have had a problem with some contradictory 
information coming out. When the checks didn't go out the first 
of the month, well, then you issued a press release that they 
would be cut on Friday the 2nd. And then, there was also some 
announcements sent out that if--you know, in places like New 
Mexico where it is 325 miles to the only hospital and the only 
facility in the State, that the VA would be going to some of 
the larger universities and handing the checks out. That didn't 
happen.
    At the same time, there was a Web site up where veterans 
could go to, but we didn't get that information to people, so I 
was just wondering if we are streamlining our communications 
within our office there so that we don't continually jerk the 
veterans around and have some of them misinformed.
    Mr. Wilson. I understand your concerns, Congressman, and we 
have, I believe, we have a better process in place to make sure 
that we are communicating more effectively on that.
    The issues that we were dealing with was trying to get, 
make sure we had something out the gate and informed our 
student population prior to October 1, around the October 1 
timeframe. The October 1 was important because most folks were 
at that point where they would do their first full housing 
allowance payments. We thought it was important to get 
something up as soon as possible.
    We were dealing, and continued to deal, at the time of that 
press release, with some technical issues concerning how we get 
to the other locations beyond our 57 regional offices. We very 
early on wanted to spread this out as much as possible. We felt 
that the most effective manner of doing that was leveraging 
technology, taking into account that we have students at 
thousands of locations across the country. We felt the most 
effective way of getting those folks touched, that weren't 
within driving distance of a regional office, was to allow 
technology, so that was the driver for our decision on the 
follow-up.
    Mr. Teague. Yes, and I agree with that, and I think that 
the Web page is working well. It is just that during that week 
prior to that when I was at New Mexico State University, they 
were expecting someone to be there with the checks and then on 
Friday when no one was there, that is when we found out about 
the Web page.
    Mr. Wilson. I understand.
    Mr. Teague. Another thing, I guess it is a misunderstanding 
on their part and I was wondering where the information came 
from that so many of the veterans thought that they were going 
to be paid in advance, both for tuition and housing.
    Mr. Wilson. The advance payment issue has been troubling. 
We have had in our outreach material, going back to the winter 
period or early spring, winter period, information providing 
the student experience, in other words, what would the student 
experience, and we have worked very hard to make sure 
individuals understand when they would be paid.
    The examples that we use were for the individual who would 
be having their first day of class toward the end of August. 
Come September 1st, they were only eligible for a partial 
housing allowance for those couple of days of attendance in 
August, followed by the first full housing allowance payment on 
October 1st.
    For whatever reason, and again I would be speculating, that 
didn't seem to be fully understood. Largely, it did because 
most of our current participants are transferees from the 
Montgomery GI Bill and this benefit is paid in the same manner. 
But we didn't get that word out to everybody and there were 
pockets of communication and we need to continue to work hard 
on that issue.
    Mr. Teague. You know, and you brought up another thing 
there with the transferring from the Montgomery GI Bill to the 
Post-      9/11 GI Bill, and sometimes before they understand 
the full benefits of both programs, people have committed to 
the Post-9/11 GI Bill and then found out that it really didn't 
have as many benefits for them, individually, as the Montgomery 
GI Bill, but they can't switch back. Is there anything that we 
can do there, whether they can reconsider it, if through 
oversight on their part or misinformation, they want to go back 
to the Montgomery Bill?
    Mr. Wilson. The structure of the Post-9/11 GI Bill calls 
for an irrevocable decision, so currently that is a statutory 
requirement. There is no mechanism within the statute that 
would allow a person to unrevoke the irrevocable election.
    Our mechanism by which we have been educating people on 
that is making sure that they can understand the questions that 
need to be answered. The answers to the questions themselves 
are going to be unique to each individual person. So you are 
absolutely right for raising this concern. Individuals do have 
to be well armed. They have to know what questions to ask and 
our efforts have been designed toward ensuring they can answer 
those questions, both monetarily and non-monetarily.
    There are non-monetary issues that are very important here 
too, such as the difference in the delimiting date between the 
two benefits. So that has been our direction, but I understand 
your concern. It is a statutory irrevocable decision.
    Mr. Teague. And then the burden is on us to be sure that 
our people and our staff understands well so that they explain 
well so that we don't mislead people and cause them to make the 
wrong decision.
    But, once again, thank you for answering the questions. 
Thank you for being here and, Madam Chairwoman, thank you.
    Ms. Herseth Sandlin. Thank you very much, Mr. Teague.
    Dr. Snyder.
    Mr. Snyder. Mr. Mitchell is here. I apologize.
    Ms. Herseth Sandlin. I had heard you were here, you know, 
an hour early, so.
    Mr. Snyder. I don't think that counts.
    Ms. Herseth Sandlin. Okay. Mr. Mitchell, you are 
recognized. Thank you, Mr. Mitchell.
    Mr. Mitchell. Thank you for allowing me to be here today 
and thank you both for the strong leadership on this issue.
    Mr. Wilson, before I get into my question, I would like to 
go on record with a message to the VA. I have held two 
oversight hearings on improper bonuses within the VA. 
Additionally, Congress and the American people did not look 
kindly on banks that received bailout funds that gave major 
bonuses to their executives.
    Regardless, if you work on Wall Street or Main Street or 
for the Department of Veterans Affairs, bonuses should follow 
performance. My understanding is that the Fiscal Year 2009 
bonuses have not been awarded by the VA yet, and I think that 
the VA must think long and hard about giving out plush bonuses 
for Fiscal Year 2009, while so many veterans are still waiting 
for the benefits they've earned and scrambling to make sure 
they have the money to pay for schools, books and housing.
    Mr. Wilson, this is not your first appearance before this 
Subcommittee. You have appeared before it several times since 
the GI Bill was signed into law. To keep the Committee Members 
apprised of the VA's efforts to implement the GI Bill and you 
offered assurances that the VA would be ready by August 1st. 
You even brought in a detailed timeline to show us how the VA 
would be ready by August 1st.
    In February, Mr. Adler of this Committee asked if the VA 
needed more tools to accomplish the goal of program 
implementation. You responded by stating, ``This legislation 
itself came with funding.'' This funding is, at this point, has 
adequately provided us with what we need for implementing 
payments on August 1st, 2009.
    If this legislation provided to you is what you needed 
then, why did you go to the VA--or, then, where did you or the 
VA go wrong in meeting the implementation goal?
    So I would like to ask two questions. How are we supposed 
to believe that the assurances you are offering today and, two, 
knowing how interested Congress is in implementing the GI Bill, 
once you knew you were running into problems, why didn't you 
let us know? Why do we have to first hear about it from 
veterans and read about it in the Army Times?
    Mr. Wilson. You rightly call us out in terms of not 
providing timely service to all veterans. We acknowledge that 
and we are working as hard as humanly possible to make sure 
that we are meeting those goals.
    The timeline that we provided to the Subcommittee, I 
believe, was largely met, in terms of our ability to generate 
payments on the date that they we were required to deliver the 
first checks. First payments did go out August 3rd.
    There were a couple of significant challenges that we have 
not anticipated. One was the volume of work created by the 
increase in applications for eligibility determinations that 
did not translate into student population, dropping off other 
programs, so we had significantly more work in our existing 
programs than we would have expected to have to maintain going 
into the fall enrollment.
    One of the other primary challenges that we have responded 
to is when we began our ability to use the tools that were 
developed to implement the program in a short term. May 1st is 
when we began using those tools and it was very clear to us 
from the get-go that even accounting for our understanding that 
they weren't perfect, we under-estimated the complexity and the 
labor-intensive nature of what needed to be done.
    We responded by hiring 230 additional people to account for 
that.
    Mr. Mitchell. I read all that in your testimony. My point 
is, once you knew you were running into problems, why didn't 
you come back to us? We heard it first by veterans and through 
the Army Times that you were having problems.
    Mr. Wilson. It has been our desire from the get-go to make 
sure that the Subcommittee has been informed all along. If we 
did not meet those expectations, then we need to be held 
accountable for that.
    We provided information that we had at each of the 
hearings, and we have had a longstanding mechanism by which we 
have provided updates to staff on a regular basis. We did 
notify the Subcommittee at the time of the hiring of the 230 
additional people.
    Mr. Mitchell. Thank you.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Dr. Snyder. And if you prefer to come 
back or I can recognize you now. There are still 8\1/2\ minutes 
left in this series of votes.
    Mr. Snyder. Whatever you want to do. I'm glad to go----
    Ms. Herseth Sandlin. Are you able to come back?
    Mr. Snyder. Yeah, I can come back.
    Ms. Herseth Sandlin. It is up to you, then.
    Mr. Snyder. We can come back.
    Ms. Herseth Sandlin. Okay. All right.
    We have just two votes, so we will head down so we have 
plenty of time to make this first vote and then when we return, 
we will resume the question with Dr. Snyder.
    [Recess.]
    Ms. Herseth Sandlin. We will resume the hearing. Dr. 
Snyder, you are recognized for your questions.
    Mr. Snyder. Thank you, Madam Chair.
    Mr. Wilson, I appreciate your being here and all your work. 
I would think this must be a pretty exciting time for you all. 
I mean, it is really--it has been a lot of people given some 
opportunities they haven't had before and may not think they 
have had before and I think your work is going to pay off for 
the county.
    I wanted to ask just about the IT aspect of things because 
I am not a Member of the Subcommittee. I know Stephanie and a 
good group of Members have done a lot of work on this. I don't 
really understand where the delay was.
    In your statement, you quote from your press release that 
states that, ``The VA did not receive enough proposals from 
qualified private-sector contractors to create an IT program 
that implements a good benefit.'' That was your 2008 statement.
    You know, my question is, ``Why not?'' I mean, it is not 
like there is so much work out there right now that nobody in 
America knows how to do information technology. Why didn't you 
receive proposals? I mean, this would have been a very 
lucrative contract for somebody.
    Mr. Wilson. Part of my response would be speculation on my 
part because I can't speak on behalf of the vendors. Having 
said that, what I do know is that there appeared to be concern 
with the time table and concern with the technical aspects, 
such as integration with the myriad of systems that would have 
to occur, setting up a rules engine, et cetera, just the 
technical aspects of doing that much work in such a compressed 
timeframe. There were just, I believe, high risks there. We had 
several vendors that dropped out of the competition during 
that.
    Ultimately, we never got to the point where we were 110 
percent comfortable that checks would go out on August 1st, 
taking that into account, but we still felt we needed an 
automated system to do this right. So taking that into account, 
we developed the two track--do the minimum, do what we have to 
do to get checks out the door on August 1st, but it is not 
going to be pretty. Acknowledging that it is not going to be 
pretty, keep that long-term strategy in place, get that 
automated system in place as quickly as possible.
    Mr. Snyder. It seems like, when you get to the point of 
where you want to be, that the issue that Mr. Teague brought up 
about if people make the wrong decision by choosing the wrong 
program, that your software program should help them sort that 
out, should it not?
    Mr. Wilson. I think that is a fair characterization from a 
technology standpoint. That could potentially be sought out, 
worked through. Obviously, legal issues, as I mentioned, would 
still be there. One thing that would be a potential concern----
    Mr. Snyder. I wasn't talking about the issue of the 
revocation. I was thinking about when someone--I mean, it seems 
like ideally you go on, you edit information, it basically 
makes the decision almost immediately about, you know, your 
eligibility or not.
    But then it also seems like that there should be a software 
program that says, you know, because of your age or whatever, 
your smartest decision may be to stay with MGIB because we 
certainly--as those of us who, and probably nobody has been 
more of a champion of this than Ms. Herseth Sandlin with this 
GI Bill, and we all have really talked about it a lot, about 
this great improvement, so I am not surprised that most people 
out there think that this would be the better program. But 
apparently for some people it is not.
    And it seems like at some point there could be the 
possibility of a red flag going off for the veteran that says, 
you may want to talk to your veteran's counselor or consider 
these other possibilities. Do you foresee that being down the 
line somewhere, or is that going to be just distinctly a Post-
9/11 GI Bill application?
    Mr. Wilson. No, I think that is a possibility. One thing I 
would emphasize, though. The approach that we have consciously 
made on this is emphasizing that this is both a monetary and a 
non-monetary decision, and there are non-monetary factors, both 
now and in the future that change, and if I could provide an 
example.
    An individual may make the decision now that they are 
better off under the Post-9/11 GI Bill monetarily, and that's a 
sound decision from their perspective. However, if they only 
have 2 years--well, let me back up. They could make the 
decision that they are better off under the Montgomery GI Bill 
and monetarily that would pay them better benefits. They still 
may be better off under the Post-9/11 GI Bill because of the 
difference in the delimiting date.
    If an individual elects to stay under the Montgomery GI 
Bill right now, for example, if they have 2 years left to use 
that benefit, it may be a wiser decision for them to opt into 
the Post-9/11 GI Bill, even if they would receive those 
benefits because they have 5 additional years to use the 
benefit.
    Even that decision is dynamic. A person could be very 
comfortable in their job right now and make the decision in the 
case that I just talked about, that they are going to stay 
under the Montgomery GI Bill and they are good. But if they are 
in a segment of the economy where a year from now, 2 years from 
now, their job stability is threatened and they become more 
concerned, then that is a factor that is changed concerning the 
benefit that is best for them.
    So that is why we have tried to focus on the monetary 
aspects. That is fine. But take into account the non-monetary 
aspects as well.
    Mr. Snyder. Thank you.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Dr. Snyder.
    Mr. Boozman, you are recognized for your opening remarks, 
as well as questions. We did enter your opening remarks for the 
record.
    Mr. Boozman. Yes, ma'am. That is fine.
    Ms. Herseth Sandlin. Okay.
    Mr. Boozman. Thank you very much. Thank you, Madam Chair.
    Mr. Wilson, as staff and as we have been out and about, it 
seems like that there is not a lot of knowledge about Title IV 
benefits such as the Pell Grants and things like that. Is there 
any attempt to encourage vets--I know we have got a lot going 
on, but is there any attempt to encourage vets to apply for 
Title IV benefits such as the Pell Grants?
    Mr. Wilson. Currently, we don't have significant efforts in 
that area, and I believe that is a point well taken. I believe 
we can do better in that area.
    We do know right now there is information showing that 
about half of our student veteran population are in receipt of 
Pell Grants, a subset of the Title IV benefits you talk about.
    So we can, I believe, do a better job of making sure folks 
understand the Federal benefits that are potentially available 
for them, as well.
    Taking it a step farther, the local programs, the State 
programs, the private programs, the campus-based aid, et 
cetera, there is a universe of benefits out there, and we have 
had preliminary discussions on how we do a better job of doing 
that.
    Mr. Boozman. And I guess maybe working with the Transition 
Assistance Program might be an area that might be beneficial.
    Mr. Wilson. Yes. We have had discussions with the State 
Approving Agencies (SAAs) on this very topic, and we have had 
some preliminary back and forth concerning how we plug into the 
State mechanism, how do we make sure that we are doing what we 
can to link up veterans with that State information. I think 
the State Approving Agencies are the ideal mechanism to do just 
that.
    Mr. Boozman. The current term in place that you have, when 
is their appointment scheduled to end, and I guess, also, are 
you planning on employing any of these employees beyond their 
current terms?
    And then, also, as we go through the next enrollment 
period, do we need to hire additional staff beyond what we have 
done on this last go round?
    Mr. Wilson. The 530 additional people that we brought in 
out the gate under the Post-9/11 GI Bill are built into our 
assumptions for our resources that we will have available in 
2010. So we have those folks. Our understanding is we will have 
them in 2010, if that need is there.
    In terms of bringing on additional staff, you are aware 
that we hired 230 additional people beginning in May. Those 
individuals were hired under the ARRA (American Recovery and 
Reinvestment Act) funding and we have them until the end of the 
year currently.
    Mr. Boozman. Okay.
    Mr. Wilson. We are, also--I just want to make one more 
point if I may. The efforts that I have talked about, the 230 
additional hires, the 70 people that we have moved from non-
claims processing work into claims processing work, that is 
part of a dynamic effort. We are looking at those efforts every 
day. We are going to continue to do that as we identify 
additional resources that we can bring to bear on this effort. 
We will be doing that.
    Mr. Boozman. I guess getting an idea of how long these 
things take, when you requested, I guess when did you request 
the 230 additional term employees to process the GI Bill? How 
long did it take for OMB to approve the use of the funds?
    Mr. Wilson. The funds were approved for claims processing 
work under the ARRA authority. It did not define claims 
processing work and clearly this is claims processing work, so 
we were able to move out fairly quickly on that.
    Mr. Boozman. Okay. Very good. And I guess the status of the 
long-term IT fix for processing, do we have any idea when that 
will be available?
    Mr. Wilson. The first deployment of the long term will be 
in the March/April timeframe of 2010. What that will do is 
consolidate the current functionality that is in both the job 
aids and the front end tool into a Web-based, user-interface 
that will make the claims examiner's job a little bit easier.
    Following that, there are three, I believe, three 
additional deployments that will add functionality, two more 
before or at the fall enrollment period for next year, and then 
the final deployment for full automated functionality in 
December of 2010.
    Mr. Boozman. Okay. Before she starts blinking my light, I 
know you all have worked really hard on this and it has been a 
very difficult situation, and I think that the law is a 
tremendous benefit for our veterans, and certainly I know my 
commitment, and I know the Committee's commitment here is to 
help any way we can. I think the key to that is you just 
letting us know what we need to do. I know that we're going to 
try and go forward, my understanding is that with the technical 
corrections of the bill to make things easier a bit.
    But I do appreciate your hard work and I appreciate your 
staff's hard work. I think that they are doing the very best 
that they can, and again, hopefully we will get all this 
figured out and get things flowing in the right direction, and 
then being in better shape as we go forward with the next 
semester.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Just to follow-up on some of the questions the Ranking 
Member was posing. Mr. Wilson, how much longer does the VA plan 
to require mandatory overtime for claims processing staff, 
which I understand has been 3 days per pay period, which is 
every 2 weeks? Also how long will you continue to use 
headquarters staff and redirect staff to help process the 
education claims?
    Mr. Wilson. We are not prepared to make a decision on how 
much longer we will keep that in place until we have the 
current backlog resolved.
    Our goal is to go into the spring enrollment with no 
backlog. If we need to, we will keep those measures in place, 
in addition to any other measures that we identify through the 
spring enrollment. We are doing everything in our power to make 
sure that we are adequately prepared for the spring enrollment.
    Ms. Herseth Sandlin. And for this current semester, before, 
as you work to get rid of the backlog before the spring 
enrollment, on average, how many amended awards for tuition are 
you anticipating for this semester?
    Mr. Wilson. That potentially is a challenge. The short 
answer is we don't know and it is related to the manner in 
which schools will be required to report to VA under the Post-
9/11 GI Bill. As you are aware, Madam Chair, the Post-9/11 GI 
Bill allows us to pay actual tuition and fee charges. So if 
there are any changes in that number, even if a student were to 
substitute one class for another class that might have a lab 
fee, for example, the school is required to provide that 
amended enrollment information to us and we will have to 
process that work.
    We are making sure that we are going to do everything we 
can to segment that work out as much as possible so that we can 
manage that without interrupting and impacting the housing 
allowance payments that go out to students.
    But potentially, it could be a significant amount of work. 
Historically, what I can tell you is about 25 percent of our 
students end up having some type of amended award, so we would 
expect that to at least be the base number.
    Ms. Herseth Sandlin. When I was asking earlier about 
whether there are any recommendations you can make to make it 
easier for the VA to process amended tuition awards or other 
legislative fixes to streamline the administration of these 
benefits and the technical corrections that the Ranking Member 
alluded to, this will all be part of the long-term solution 
right? I mean it would be very difficult, just as it was 
difficult in anticipation of the May 1st and August 1st 
deadlines, to make changes that would impede meeting those 
deadlines.
    I know that in response to my question, you had indicated 
we could possibly look at paying housing allowances in advance. 
But again, being aware of how that then will affect 
administration of the short-term solution through next 
semester, but did you say that the long-term IT solution won't 
be fully up to capacity until December of next year? Are we 
looking at two additional semesters of using the legacy system?
    Mr. Wilson. It is a phased deployed for the long term. The 
full deployment does occur in December of 2010. That gives us 
the automated functionality that is the goal for development or 
implementation of the long-term solutions, so that is correct.
    Ms. Herseth Sandlin. Okay. Just a couple more questions, 
but back to the amended awards issue. If you start anticipating 
problems, or experiencing problems in terms of just 
historically 25 percent are looking at amended awards, as I 
know that you do in your communications meeting regularly with 
our Subcommittee staff. We need to be made aware of the 
problems immediately if there are any complications that arise 
with the housing stipends and anticipating the need as you 
should do in terms of advance payments, but that is my next 
question.
    Are there concerns that the emergency checks that were 
recently given to veterans are going to cause an overpayment 
and are veterans made aware of this and is this another 
potential problem that lies out there?
    Mr. Wilson. Veterans are made aware. When they receive 
advance payment, they are notified that this is an advance on 
payments that will be due when their award is processed and 
that there will be a recoupment of the benefits, so they are 
notified.
    Whether or not they will be an overpayment will depend on 
several things, for example, the amount of advance pay that an 
individual chose to receive. It could be up to $3,000, but they 
could take an amount less than that. Also, it would depend on 
their housing allowance rate for the zip code that they live in 
so there are several factors that are at play concerning any 
overpayment.
    Ms. Herseth Sandlin. Mr. Mitchell, did you have any 
additional questions for Mr. Wilson?
    Mr. Mitchell. Just one, if you don't mind.
    Ms. Herseth Sandlin. Okay.
    Mr. Mitchell. Mr. Wilson, I believe that no veteran--and I 
am talking as a former schoolteacher and who values education 
very, very much. I don't believe any veteran should fall 
behind, even a semester, because of the VA's inability to meet 
the goals that we have set out for and I would like to know 
what the VA is doing to ensure that future payments will not be 
delayed, as well as what assurances can you offer that measures 
will work?
    Mr. Wilson. Everything that we are putting in place right 
now is designed to ensure that we go into the spring semester 
fully loaded with what we need to have on board. We will take 
every step that we need to to make sure veterans have access to 
payment. If that means that we have to keep an advance payment 
mechanism of some sort in process, we will do that. But our 
goal is to make sure that those mechanisms are not needed, that 
we have this issue resolved prior to the spring semester and we 
move forward.
    The Secretary has been very clear that any delay in payment 
is unacceptable. Everybody in VA agrees wholeheartedly with 
that. On a personal level, I can say firsthand I know exactly 
what these students are going through. I went through college 
under the GI Bill. I know what it is like to stand in a line 
for food stamps after defending this Nation for 8 years. I take 
this very personal and we are going to fix it.
    Ms. Herseth Sandlin. Mr. Boozman, any follow-up questions?
    Mr. Boozman. Very quickly, Madam Chair. Right now, we have 
a number of minutes that it takes to process a claim. Is there 
a performance goal for the long-term solution in what we want 
to get that down to?
    Mr. Wilson. Ultimately what we would like to see in the 
long-term solution is essentially immediate turnaround. That is 
why we are going to a rules-based mechanism by which we can do 
this.
    Our experience with rules-based processing within VA is 
limited. We expect this to be a learning curve for us. We would 
expect some segment of work out the gate, a large segment of 
work out the gate to be processed through an automated system. 
We don't want veterans to wait at all for eligibility 
determinations and payments, et cetera.
    As we gain experience and understanding more the nuances of 
how we need to manage this rules-based system, we are going to 
continue to work toward the point where we have everything 
processed automated.
    One thing I would remind the Members of, is we are talking 
about the Post-911 GI Bill. We are looking at our other 
programs in the same way, but our focus right now is the Post-
9/11 GI Bill.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Mr. Adler, did you have any questions 
you would like to pose or a statement?
    Mr. Adler. Thank you, Madam Chairwoman. First of all, 
Director Wilson, I thank you so much for the passion in which 
you discussed your past experience, your personal experience 
and I am so optimistic you will continue to bring that level of 
passion to meet the needs of our people mustering out of 
service and trying to transition successfully to a civilian 
life through education.
    Are there anything, any other tools you need from Congress 
to achieve this goal of the Post-9/11 GI Bill?
    Mr. Wilson. The main tool we need is the ability to 
continue an aggressive dialog with Congress. We are anxious to 
engage with Congress, as we have, to continue that, expand 
that.
    We want to streamline this as much as possible while making 
sure that we don't do anything that we don't want to do in 
terms of interrupting the level of service that we have now. We 
do have limited flexibility concerning what we can do with our 
existing IT structure, but the main thing is continued dialog, 
I believe.
    Mr. Adler. Director Wilson, I thank you for that. We 
welcome dialog and, frankly, we would like to hear from you as 
needs arise before crises arise, so if you see a backup because 
IT is not working, I know there are other folks working in the 
VA who don't like to come here for dialog because sometimes it 
is in a less pleasant environment, a less pleasant context than 
we are discussing today in terms of meeting needs of folks who 
are trying to achieve their goals through education.
    So, please, we welcome that dialog proactively on your 
part. Tell us what you need from us in order to achieve the 
goal for all America of treating our veterans rights in the 
education context.
    I thank you. I yield back.
    Ms. Herseth Sandlin. A couple of final questions with 
regard to the education call center. We have received some 
calls to the Committee from some veterans who are frustrated in 
terms of their inability to reach a VA official when they are 
calling with questions regarding a pending education claim, and 
you had mentioned it in your written testimony, that the VA 
hired and redirected a total of 57 term personnel to the 
education call center. Are you able to call the data to tell us 
how long the average wait time has been for veterans to 
connect, what the dropoff rate percentage is and how long these 
57 term personnel will be available, and do you need additional 
resources as it relates to the importance of that education 
call center to so many veterans?
    Mr. Wilson. I don't have that data with me, but I would be 
happy to provide it for the record.
    Ms. Herseth Sandlin. You can access it and get it to us?
    Mr. Wilson. Yes.
    Ms. Herseth Sandlin. Okay. If you could do that.
    Mr. Wilson. Yes, I would be happy to do that.
    [The VA subsequently provided the information in the answer 
to Question #9 of the Post-Hearing Questions and Responses for 
the Record, which appear on p. 32.]
    Ms. Herseth Sandlin. Okay. We would appreciate that.
    Mr. Wilson. Because those----
    Ms. Herseth Sandlin. It is one of those frustrations that 
we want to seek to alleviate and it would be helpful for this 
Subcommittee to know what those statistics are now, so that as 
you take steps to improve it and we have the information to 
compare it to in terms of the necessary personnel going 
forward.
    Mr. Wilson. I will be happy to do that.
    Ms. Herseth Sandlin. Before we conclude the hearing, I 
would like to make a few comments for you to consider as the VA 
moves forward with the implementation of all of its education 
programs. Again, we will continue to work closely with you as 
it relates to your goals and objectives for implementing the 
long-term solution for the Post-9/11 GI Bill and then fully 
moving everything over. Again, there is interest at the full 
Committee level to streamline the benefits to enhance 
availability, customer service, timeliness, the whole bit for 
our veterans as they access these important benefits.
    Based on the feedback that we have received from a number 
of veterans, we think that the VA should consider the 
following:
    Informing veterans of the importance of submitting an 
application of eligibility early, allowing the VA enough time 
to process a claim before the semester begins; asking veterans 
if they plan on using their education benefits in the upcoming 
term during that application process. It is my understanding 
that the VA doesn't ask that simple question that, I think, 
would allow the VA officials to prioritize the processing of 
the certifications of eligibility.
    Also, informing veterans to expect to receive their first 
housing and book stipend in arrears--maybe we seek to change 
that, but until we do, given that it is administered the same 
way it was under the other education claims benefits, knowing 
that there was some information or misinformation or 
miscommunication in some of the outreach efforts that different 
organizations in the VA were doing, there was an expectation 
that wasn't effectively managed there.
    Until a change is made, we all have to inform veterans more 
effectively on what to expect as it relates to receiving those 
housing and book stipends, informing veterans of the benefits 
to applying for additional Federal education programs that 
could enhance their VA education benefits. I would encourage 
you to let us know or to coordinate with and for us to 
understand better the role of State Approving Agencies and 
assisting in that regard, other veteran service organizations 
that can help communicate all of the opportunities available to 
our veterans. Especially the Federal Pell Grant Program and the 
Federal Work Study Program that may provide a source of funds 
to veterans waiting for VA housing and book stipends to be 
received certainly.
    And furthermore, as you might recall, with the leadership 
of Mr. Boozman, Congress authorized the VA to conduct mass-
media outreach services. The VA has the opportunity to use this 
resource to implement some of these recommendations to ensure 
that student veterans don't experience the same barriers that 
the first wave of students recently encountered.
    Again, I think, given all that you did anticipate, some of 
which you didn't anticipate, I do have confidence that we all 
will apply lessons learned to address this going into the next 
semester, the following, and the deployment of the long-term 
solution. But I do think that this authorization to conduct 
mass-media outreach services, getting ideas for its 
effectiveness, working with SAAs, working with our VSOs would 
be very helpful.
    I hope that you will place serious consideration on these 
recommendations that don't require Congressional intervention. 
I, along with my colleagues and the Committee, stand ready to 
assist the administration, the President, the Secretary and 
you, as you seek to eliminate the delays in processing the 
education benefits for our Nation's veterans and their 
dependents.
    Mr. Wilson, I thank you for your testimony, your 
responsiveness, your service to the country and your commitment 
to our Nation's veterans.
    The hearing now stands adjourned.
    [Whereupon, at 3:36 p.m. the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    Today, we seek to administer our oversight jurisdiction on the VA's 
implementation efforts of the Post-9/11 GI Bill. I expect that this 
hearing will provide the VA the opportunity to update us on recent 
actions taken to address delays in distribution of education benefits, 
and its plan moving forward to ensure the same mistakes do not occur in 
the future.
    To date, our main focus has been to ensure VA has the resources to 
upgrade its information technology to support the unique demands of the 
Post-9/11 GI Bill. Furthermore, we have actively requested that VA 
appropriately alert us of any shortfalls in resources to successfully 
complete its mission, to include legislative changes that must be made 
by this Subcommittee.
    Today we are seeking assurances that the VA has sufficient 
resources to meet all its goals and demands placed upon it by Public 
Law 110-252. Unfortunately, the past few weeks have shed some light on 
the shortcomings facing the VA and how it must improve the way it 
processes education claims.
    Yesterday we had the pleasure of welcoming Secretary Shinseki to 
the full Committee so that he could highlight VA's accomplishments and 
unmet goals. I appreciate the Secretary's sincere commitment to provide 
our Nation's veterans with the best resources in a timely manner. I 
share this strong commitment and applaud actions taken by the VA to 
address the current backlogs in distribution of education benefits. 
While this is commendable, more forethought should have been given to 
the emergency check solution to address any potential problems.
    I would like to make a few comments for VA to consider as it moves 
forward with the implementation of all its education programs. Based on 
the feedback that we have received from veterans, the VA should 
consider the following:

    <bullet>  Informing veterans of the importance of submitting an 
application of eligibility early allowing the VA enough time to process 
a claim before the semester begins;
    <bullet>  Asking veterans if they plan on using their education 
benefits in the upcoming term during the application process. It is my 
understanding that VA does not ask this simple question that may allow 
VA officials to prioritize the processing of certifications of 
eligibility;
    <bullet>  Informing veterans to expect to receive their first 
housing and book stipend in arrears. Many of us have heard from several 
misinformed veterans that thought they would receive this benefit prior 
to the start of school; and
    <bullet>  Informing veterans of the benefits to applying for 
additional Federal education programs that could enhance their VA 
education benefits. The Federal Pell Grant Program and the Federal 
Work-Study Program may provide a source of funds to veterans waiting 
for VA housing and book stipend to be received.

    Furthermore, you might recall that, with the leadership of Ranking 
Member Boozman, Congress authorized the VA to conduct mass media 
outreach services. The VA has the opportunity to use this resource to 
implement some of my recommendations to ensure student veterans do not 
experience the same barriers that the first wave of students recently 
encountered.
    I hope you place serious consideration to these recommendations 
that do not require Congressional intervention. I, along with my 
colleagues in the Committee, stand ready to assist the administration 
as it seeks to eliminate any delays in processing education benefits 
for our Nation's veterans and their dependents.

                                 <F-dash>
      Prepared Statement of Hon. John Boozman, Ranking Republican
              Member, Subcommittee on Economic Opportunity
    Good afternoon Madam Chair. I believe this will be the sixth 
hearing we have held on implementation of the Post-9/11 GI Bill since 
it became law last June. We have discussed staffing needs, the 
initiative to develop the new information technology systems needed to 
help manage the program, and the administrative complexity of the 
program. In short, I believe we have covered the waterfront.
    Despite our work and that of the VA staff, we are about what we 
predicted in terms of a backlog in processing claims for education 
benefits. In hearings before passage of the new program, VA testified 
as to the administrative complexity and the resultant challenges. I 
suspect even VA has been surprised about some of the unseen and 
unintended consequences of the new program. I want to be very clear 
that there is plenty of blame to go around. Congress rushed the bill 
through without adequate consideration of alternatives such as the 
Chair's H.R. 5684 or fixes to the Senate bill. The VSOs were too 
focused on one product at the expense of others, and VA should have 
recognized the need for more staff sooner than May.
    I congratulate Keith Wilson on crafting VA's testimony, which in a 
very polite way, essentially says. ``We told you so.'' Despite the 
massive effort by the Education Service to meet all the milestones some 
veterans are still waiting for checks. The current backlog is due to 
many things such as VA's staffing, when a veteran applies for 
eligibility, when a school certifies enrollment, when a State 
legislature sets the budget for State schools, and other factors. So 
while there have been some bumps in the road, I believe the Education 
Service deserves our appreciation for the job they have done. With the 
resources now in place and the arrival of the phase three software, 
hopefully, we will not have a repeat of this fall's situation.
    Madam Chair, it is time for us to hear from VA about the changes 
they believe are needed to smooth administration. In yesterday's State 
of the VA hearing with Secretary Shinseki, Ranking Member Buyer offered 
some suggestions to consider to reduce the administrative workload. 
Whether any of them are viable, or whether there are other technical 
changes VA considers needed, we need to hear from the Department.
    Finally, the time for finger pointing is over. I welcome anyone's 
ideas and look forward to working with the Chair to take appropriate 
action.

                                 <F-dash>
            Prepared Statement of Keith M. Wilson, Director,
     Office of Education Service, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs
    Good afternoon Chairwoman Herseth-Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the status of the Post-9/11 GI Bill 
implementation. My testimony will address the challenges we face, the 
current status of education claims, workload trends, and 
countermeasures we are taking to alleviate delays in processing. 
Additionally, I will highlight the important Congressional support we 
received during implementation.
Background and Challenges
    Enactment of the Post-9/11 Educational Assistance Act on June 30, 
2008, gave VA approximately 14 months to develop a new, highly complex 
eligibility and payment system for hundreds of thousands of claimants 
who would be eligible to receive benefits under the new program on 
August 1, 2009. To meet this challenge VA began accepting applications 
to determine eligibility for the Post-9/11 GI Bill on May 1, 2009. On 
July 6, 2009, we started accepting enrollment certifications from 
school certifying officials for Veterans utilizing their Post-9/11GI 
Bill benefits for the fall term and began processing claims for 
payment. The first payments were disbursed by the U.S. Treasury on 
August 3, 2009.
    Since May 1, 2009, approximately 210,000 individuals have been 
deemed eligible and provided a certificate of eligibility, and 
approximately 44,500 students have received a payment under the Post-9/
11 GI Bill. Not all individuals who applied to determine their 
eligibility for the new program will immediately enroll in school; they 
generally have 15 years following active-duty separation to use their 
education benefits.
    VA testified before this Subcommittee on October 18, 2007, stating 
that, ``these new payment methods [for the Post-9/11 GI Bill] would 
require extensive enhancements to existing payment systems. . . . Our 
continued concern is limiting the impact on beneficiaries and ensuring 
timely receipt of payments.'' Between June and October 2008, VA sought 
contractor support for development of an information technology (IT) 
system to process Post-9/11 GI Bill claims beginning August 1, 2009. As 
stated in VA's press release of October 10, 2008, ``VA did not receive 
enough proposals from qualified private-sector contractors to create an 
IT program that implements the new benefit.'' VA did not have 
confidence that any of the respondents could create the required 
complex IT system in sufficient time to meet the August 1 deadline. As 
a result, VA terminated the solicitation process and began 
implementation with internal resources. From this point, VA had 9 
months remaining to complete implementation.
    Due to the short timeframe, complexity of the new benefit program, 
and limited availability of internal IT resources, VA began development 
of an interim claims processing solution while simultaneously 
developing a long-term, rules-based processing solution in cooperation 
with the Space and Naval Warfare Systems Center Atlantic (SPAWAR). VA's 
Office of Information & Technology (OI&T) designed the interim 
processing solution functionality in three separate phases. Each phase 
is intended to deliver a specific set of functionalities for claims 
examiners to process Post-9/11 GI Bill claims. Development of the 
interim solution has presented significant challenges due to the 
complexity of the new program and the reduced timeline for delivery. 
Prior to August 1 implementation, OI&T delivered two of the three 
phases of the interim solution.
    Post-9/11 GI Bill claims currently require manual processing using 
four separate IT systems that do not interface to each other. When an 
application or enrollment certification is received, the documents are 
captured into The Image Management System (TIMS). The documents are 
routed electronically to a claims examiner for processing. The claims 
examiner reviews the documents in TIMS and determines the student's 
eligibility, entitlement, and benefit rate using the Front End Tool 
(FET). The FET is used to calculate and store student information to 
support the Post-9/11 GI Bill claims adjudication process. However, the 
FET has limited capability for processing the multiple scenarios 
encountered in determining eligibility and entitlement under the new 
program. As a result, VA in conjunction with MITRE Corp. developed 
multiple job aids, or out-of-system tools and spreadsheets to augment 
claims processing.
    Once the benefit rate and payment amount are determined, the claims 
examiner manually enters the payment information into the back-end tool 
(BET). The BET utilizes the existing Benefits Delivery Network (BDN) to 
issue payments. A payment cannot be processed until at least two 
individuals approve the award and payment amount. All evidence to 
support the award actions taken by the claims examiner and a senior 
claims examiner is captured into TIMS. This process is completed 
separately for the housing allowance, the tuition and fees payment, and 
the books and supplies stipend. Due to lack of integration among 
systems, the time to complete a Post-9/11 GI Bill claim is 
significantly longer than processing time for other education benefits. 
Currently, it takes approximately 1\1/2\ hours to process one original 
claim under the Post-9/11 GI Bill.
    Phase three of the interim solution, which will provide increased 
functionality and additional automation for processing Post-9/11 GI 
Bill claims, was originally scheduled for deployment in September 2009 
during the peak enrollment period for processing education claims. Due 
to the complexity involved in processing for both amended awards and 
overlapping terms, phase three is now scheduled for early November 
2009. Amended awards include changes in a student's actual charges for 
tuition and fees and reduced or increased course loads. Since the law 
requires VA to pay actual charges, amended awards are required for any 
change in a student's tuition and fees.
    Because the program implementation date falls in the middle of some 
school terms, VA must also determine rates payable to students in 
school on August 1, 2009, under two separate benefit programs and pro-
rate Post-9/11 GI Bill benefits. Further complicating the claims 
process are overlapping terms. It is not uncommon for many students to 
enroll in courses that begin and end in overlapping time periods at 
different schools. Processing these claims involve additional manual 
calculations for the overlap as well as separate payments going to more 
than one school.
    In testimony before the Senate Committee on Veterans' Affairs on 
May 7, 2007, VA noted that, ``the increased amount of benefits payable 
at varying levels for different institutions would make administration 
of this program cumbersome. The requirement that the benefit be paid at 
the beginning of the term would further complicate administration and 
would tax existing VA resources.''
    The new benefit program requires VA to determine maximum tuition 
and fee rates for each State before the beginning of each academic 
year. Schools do not typically set their tuition and fee rates until 
State support is determined for the academic year. Many States did not 
pass their operating budgets until late July/early August. 
Correspondingly, institutions could not set tuition and fee rates until 
late August. Delays in determining the 2009-2010 maximum tuition and 
fee rates resulted in delayed processing of payments for students 
attending school in those States.
Current Status
    Since May 1, 2009, we have received over 937,000 claims for 
education benefits under all education programs and have processed 
approximately 794,000 claims. Enrollment certifications for 
approximately 30,000 students are currently pending under the Post-9/11 
GI Bill. Processing actions under our education programs increased by 
180,000 over the same period last year, due in significant part to the 
large number of requests for certificates of eligibility for the Post-
9/11 GI Bill. The net increase in enrolled students is approximately 
70,000.
    In fiscal year 2008, the average time to process all education 
claims was at a 5-year low; we averaged 19 days for original claims and 
10 days for enrollment certifications. This fiscal year, our average 
processing time has risen to 26 days for original applications and 13 
days for enrollment certifications. Under the Post-9/11 GI Bill, 
however, original applications are taking an average of 35 days to 
process.
Workload Trends
    VA anticipated a majority of students would transfer from the 
Montgomery GI Bill--Active Duty (MGIB-AD) and the Reserve Educational 
Assistance Program (REAP) to the new Post-9/11 GI Bill by the beginning 
of the fall 2009 enrollment period; however, this has not happened. 
Instead, we have seen only a slight decrease in the number of claims 
received under MGIB-AD and REAP compared to the same time last year. An 
original claim for education benefits takes more time to process 
because it requires an eligibility determination before benefits can be 
paid. At this time last year, only 15 percent of the claims received 
during the fall enrollment period were original claims. Between May and 
September of this fiscal year, 100 percent of the Post-9/11 GI Bill 
claims required an original entitlement determination. We also expected 
the majority of Veterans applying for a certificate of eligibility for 
the Post-9/11 GI Bill would start school during the fall enrollment 
period. Instead, many applied for the new program to receive an 
eligibility determination, but did not enroll in school this fall. This 
is also true for the new transferability provisions under the Post-9/11 
GI Bill. The Department of Defense (DoD) has received 66,000 
applications to transfer entitlement and has approved 52,000. Of those, 
VA has received only 22,000 applications from spouses and dependents to 
use this benefit for the current academic year.
Meeting the Challenge Together
    On May 7, 2008, VA testified before the Senate Committee on 
Veterans' Affairs that, ``VA does not now have a payment system or the 
appropriate number of trained personnel to administer the program . . 
.it would take approximately 24 months to deploy a new payment system'' 
to support the proposed law. Congress heard our concerns and responded 
through providing significant funding for VA to hire 530 term employees 
in December 2008 to address the anticipated increase in claims under 
the Post-9/11 GI Bill. When we determined we would have limited IT 
capability for the interim processing solution, we hired an additional 
230 term employees utilizing the additional funding provided by 
Congress under the American Recovery and Reinvestment Act (ARRA).
    VA is using all available resources to deliver education benefits 
to our Veterans. VA rehired nine retired claims examiners and 
redirected 70 Regional Processing Office (RPO) employees to provide 
additional claims processing support. We implemented policies to 
streamline the entire claims process based on case reviews identifying 
duplication of efforts and redundant or unneeded development. We also 
implemented a mandatory overtime policy at all of our RPOs, requiring 
three additional days per pay period per person for claims processing. 
While we are actively taking all possible steps to reduce the time to 
process and pay an education claim, we recognize that we are not timely 
serving all of our Veterans. In response, the Secretary of Veterans 
Affairs authorized issuance of advance payments to Veterans enrolled in 
school who have not received their benefits. On October 2, 2009, VA 
began issuing advance education payments to Veterans, in amounts up to 
$3,000, at our 57 Regional Offices and through an online portal at 
va.gov. Advance payments are being made to Veterans in all of our 
education programs. In the first week, VA made advance payments to over 
41,000 Veterans totaling approximately $120 million. Payments made 
under this special provision will be recouped from Veterans' future 
benefits.
Stakeholders
    Numerous initiatives were undertaken to better serve and inform our 
stakeholders. VA increased efforts to more widely disseminate 
information, and to also improve the quality of information 
communicated.
    The Education Call Center (ECC) is an important resource for 
Veterans to receive information about their education benefits. To meet 
the increased call volume, VA hired and redirected a total of 57 term 
personnel to the ECC, expanded phone hours, and added 72 additional 
phone lines.
    VA also increased correspondence with the higher education 
community. We directed our Education Liaison Officers to personally 
contact certifying officials at schools with 300 or more Veteran 
students to answer any questions they had regarding certifying 
Veterans' enrollments or the new Post-9/11 GI Bill. They also reminded 
the schools that it is not necessary to wait for the student's 
certificate of eligibility before certifying the student's enrollment. 
This has never been a VA requirement in any VA education program, and 
the same applies to the Post-9/11 GI Bill. VA also sent letters to 
schools providing a status on the state of claims processing and 
payments. More than 6,000 schools were provided supplemental 
information on the Yellow Ribbon Program. Over 159 schools were 
contacted directly to address questions or concerns about the program.
    It has also been a priority to involve the higher education 
community in the implementation of the Post-9/11 GI Bill. VA worked 
with the American Council on Education (ACE) to evaluate the next steps 
to be taken and to keep open an important line of communication with 
the education community.
Conclusion
    VA has hired and trained 720 new employees; built over 55,900 
square feet of office space; drafted and published 359 pages of new 
regulations; conducted over 100 outreach and training events; entered 
into over 3,400 Yellow Ribbon agreements with 1,165 schools; modified 
10 existing IT systems; and developed a new interim system for the 
Post-9/11 GI Bill. Our Education employees continue to work tirelessly 
to deliver benefits to all of our Veterans attending school this fall. 
We are proud of the accomplishments of our employees within the short 
time since the bill was enacted.
    We recognize much work remains in order for us to achieve our goal 
of timely delivery of education benefits to all Veterans enrolled in 
the Post-9/11 GI Bill and our other education programs, and we remain 
focused on achievement of our goal. VA will continue to place the needs 
of Veterans first as we overcome the current challenges in providing 
education benefits.
    VA looks forward to engaging in a dialog with Congress and our 
stakeholders to improve administration of the Post-9/11 GI Bill. Thank 
you for your continued support throughout this effort.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or other Members of the Subcommittee may 
have.

                                 <F-dash>
        Statement of Patrick Campbell, Chief Legislative Counsel,
                Iraq and Afghanistan Veterans of America
    Madam Chairwoman, Ranking Member, and Members of the Subcommittee, 
on behalf of Iraq and Afghanistan Veterans of America (IAVA), thank you 
for the opportunity to submit written testimony for this hearing on the 
status of implementing the Post-9/11 GI Bill. From legislative drafting 
to cutting tuition checks, IAVA has been closely monitoring and 
engaging in the evolution of this new benefit. IAVA strongly believes 
that the Post-9/11 GI Bill will help chart the course of the next great 
generation if implemented effectively.
    We commend the VA's decision to issue emergency checks to veterans 
who were desperately awaiting their education benefits. However, these 
checks are merely a stopgap measure. The VA and Congress must address 
the underlying problems with processing of Post-9/11 GI Bill claims 
before another round of delayed checks leave veterans in the lurch. 
IAVA recommends the following short-term and long-term fixes to address 
these issues:

    <bullet>  Immediately reassess their processing capacity and make a 
realistic recommendation to Congress for additional staff.
    <bullet>  Enlist the help of VSO's and schools to aggressively 
promote this generous new benefit and establish realistic expectations 
among veterans.
    <bullet>  Ensure that the long-term automated solution is capable 
of incorporating upcoming changes to the Post-9/11 GI Bill.
    <bullet>  Streamline and simplify the Post-9/11 GI Bill to reduce 
confusion and hasten processing times.
How serious is the check backlog?
    Over 30,000 veterans, nearly half of all Post-9/11 GI Bill users, 
are still waiting for their education benefits due to no fault of their 
own. These veterans were promised that the new GI Bill would pay their 
tuition and fees charges up front. ``You go to school and the VA will 
pick up the tab'' has been promised to millions of veterans as one of 
the key components of this new GI Bill. Now these veterans are relying 
on the patience and gratitude of their schools and universities to 
defer their tuition payments. Sadly, some veterans have been told that 
their school will not grant veterans ``any special treatment'' (e.g., 
deferred tuition) and they were forced to pay out of pocket or risk 
being kicked out of their classes.
    These same thirty thousand students were promised a healthy living 
allowance, allowing them to make school their top priority. Most 
veterans did not know that living allowance checks were paid at the end 
of each month. When they learned this hard fact they were forced to 
borrow and scrimp to cover food and rent. Veterans are resourceful and 
many could cover a month's living expenses if they could be assured 
their checks would come at the end of the month. Unfortunately, when 
these veterans called the GI Bill hotline they were put on hold upward 
of an hour and often greeted with phone message saying benefits were 
being delayed 6-8 weeks. Veterans who did get through were told to call 
back in a month or so to check on their claim. For many this was a 
month longer than they could wait.
    Not knowing how you can afford your next meal or whether you can 
afford to buy your textbooks before midterm exams is an serious and 
disruptive pressure to place on any student. Veterans are now being 
forced to wrestle with the VA and their schools just to get by, when 
many veterans just want to be normal students and focus on their 
education. These GI Bill check delays frustrate the primary purpose of 
GI Bill benefits: a meaningful opportunity for returning veterans to 
readjust to civilian life and build a sound economic future (The 
Servicemen's Readjustment Act of 1944'').
Why do we have a backlog?
    Last year the average processing time for Montgomery GI Bill (MGIB) 
claims was 14-17 days. Currently the VA is stating the average 
processing time for a Post-9/11 GI Bill claim is 35 calendar days. The 
VA often writes a check to a veteran, on average, 35 days after the 
veteran and their school complete their paperwork. Unfortunately, the 
VA rarely receives completed paperwork from the schools at the 
beginning of each academic term; a veteran starting classes on 
September 1st may not receive their first check until the end of 
October or early November.
    Processing of a Post-9/11 GI Bill claim is a lengthy and laborious 
two-step process. The first step is to determine the veteran's 
eligibility for the benefit. The processor must determine:

    1.  If the veteran qualifies for the benefit?
    2.  The percentage of benefits the veteran qualify for?
    3.  How many months of remaining benefits are left?
    4.  Eligible for enlistment kickers or college fund?

    Claims processors review veterans' claims for benefits using three 
separate sources of information to determine the length of qualifying 
service: the veteran's DD214 and DoD and VA Databases. Ironically, 
according to claim processors, the VA database is the least reliable 
source of information. Collected information is then inserted into a 
number of separate forms that calculate each part of the benefit. The 
processor then needs to ``print screen'' each form and save it to the 
veteran's file. This is the only way to track how that particular 
veteran's benefit was determined. After an hour of manual processing 
the veteran is issued a certificate of eligibility (CoE).
    The second step requires that schools certify the veteran's 
enrollment to the VA. A low paid school official certifies to the VA 
that:

    1.  The veteran is enrolled at their school and that the student is 
attending at least one class.
    2.  Which classes the veteran is taking (name and number of units). 
If a veteran adds or drops a class the certifying official must 
immediately notify the VA of any changes.
    3.  Education goal of the veteran (certificate or degree).
    4.  Tuition and fee charges.
    5.  Yellow Ribbon Scholarships or Waivers.

    These certifications are filed electronically to the VA for review 
via a system called VA ONCE. The VA claims processor then reviews each 
of the school's certifications and begins determining the appropriate 
tuition and fee payments, yellow ribbon payments, living allowance 
rates, and the book stipend. These calculations take another hour to 
process.
    To complete all required steps take 2 hours per Post-9/11 GI Bill 
claim. The VA recently hired 760 new claims processors to handle the 
increased workload. IAVA believes the VA grossly underestimated the 
time needed to process each Post-9/11 claim and did not adequately hire 
enough staff to process claims. We are concerned that many of these new 
claims processors have not yet been fully trained and therefore are not 
authorized to process claims individually, requiring twice the 
workforce to process one claim.
Where are we now?
    Over the past few weeks the VA has released some confusing numbers 
regarding their status of processing GI Bill checks. Although the VA 
will undoubtedly be releasing the most recent numbers, we would like to 
explain what those numbers actually mean to veterans. As of October 
6th:
Step One: Eligibility

    <bullet>  Approximately 290,000 veterans have requested a 
Certificate of Eligibility (CoE) from the VA
    <bullet>  Approximately 205,000 (71 percent) veterans have received 
a CoE from the VA

Step Two: Enrollment

    <bullet>  64,000 schools have submitted a certification of 
enrollment to the VA for veterans
    <bullet>  34,000 (53 percent) veterans have received payments from 
the VA

    According to the VA, each day they are still receiving an 
additional 2,000 enrollment certifications from schools and are 
processing 3,000 backlogged enrollment certifications. On average that 
means that the VA is processing 1,000 more claims then they are 
receiving. With a current backlog of 30,000 veterans awaiting checks, 
the VA will likely close this gap in a little over a month.
How did the VA respond to the delays?
    The VA acted boldly when they agreed to issue emergency $3,000 
checks to veterans awaiting their GI Bill payments. In just 1 week the 
VA issued more emergency checks (36,161) than Post-9/11 benefits that 
they had completely processed during the past 5 months (34,000 veterans 
had received checks). The VA notified VSOs of their emergency plan and 
we responded in force, leveraging our varied strengths. The VFW and 
American Legion enlisted local posts to drive veterans to their closest 
regional offices and IAVA notified tens of thousands of Iraq and 
Afghanistan veterans through a mass E-mail and Web video. We continue 
to update veterans and schools through our well trafficked 
newgibill.org.
    The VA publishes almost daily workload reports and welcomes 
feedback. When banks put holds on the handwritten checks from the VA, 
the VA quickly addressed the problem by working with several banks to 
cash these check's immediately. The VA also issued letters to banks 
verifying the checks authenticity. This past weekend the VA reached out 
to veterans soliciting their feedback and asked VSOs to tell our 
veterans that these calls were coming. Because of this joint effort, 
IAVA recently received the following e-mail from a school official:

        I have a student who got out of the Army after 4 years. He has 
        no family here nor did he have a place to live. He has been in 
        a shelter for the last month. When you guys told me via your 
        Web site about this 3000 check advance I had to see if he could 
        get it a week before school. The VA just gave him the check as 
        well as money to get home (he had walked to the VA--to say the 
        least it is a few miles). This is a tribute to what you guys 
        have done as well as the VA being able to come through for our 
        vets. The VA also wrote a letter for another student stating 
        that he was getting $1531 a month so that he could get an 
        apartment.

    IAVA believes that this stage of the VA's response to the backlog 
should serve as a model for future problem solving efforts. The VA:

    <bullet>  Publically acknowledged the problem;
    <bullet>  Swiftly implemented a bold short-term solution;
    <bullet>  Enlisted the help of veteran service organizations; and
    <bullet>  Quickly solicited and nimbly responded to veterans' 
feedback.

    IAVA is grateful to the VA for impressive effort to stand up this 
type of emergency program. We look forward to working with the VA on 
the last stage of any problem solving effort, developing a long-term 
solution.
    Sadly, this commendable effort was not was the VA's first response 
to the backlog crisis. Initially the VA publically and privately 
deflected responsibility on the backlog on two key points that IAVA 
feels still need to be addressed. The VA has claimed that delays in 
submitting enrollment certifications by schools have contributed to the 
backlog. IAVA believes schools that fail to submit timely enrollment 
certificates ensure that their veterans will receive delayed checks. 
Schools that have not yet submitted their paperwork must do so 
immediately. However, these delayed enrollment certifications did not 
create the backlog. In fact they spread out the stream of applications 
coming into the VA, reducing the average processing time for each 
claim. If every enrollment certification had been submitted on the 
first day of school the VA would have been buried under all the 
paperwork and would be no further ahead in cutting checks.
    IAVA has received a number of complaints from school officials 
stating that the VA substantially changed the certifying process well 
after these officials had received their training and began certifying 
enrollments. Their specific complaint focused on VA guidance that 
required schools, that offer State grants, to wait to certify tuition 
and fee amounts until the State grants had been finalized. Last minute 
changes to the procedures and regulations have made schools nervous 
about certifying enrollments too early in the process. Realistically, 
most schools will not certify enrollments until at least after the 
first week of classes. This is because, if a school certified a veteran 
who does not show up to school the school is responsible for refunding 
tuition and fees payments to the VA. Additionally, if a veteran adds or 
drops a class after the enrollment certification is submitted, 
additional paperwork is required. These changes may place the veteran 
in an overpayment situation resulting in a bill from the VA. Many 
schools wait until the add/drop period is completed to reduce their 
paperwork and ensure veterans aren't receiving bills from the VA. 
Delayed certifications is an issue that must be addressed for future 
academic terms, but they are not responsible for the current claims 
backlog.
    Second, the VA did a poor job managing veterans' expectations by 
failing to communicate critical information in a clear and concise 
manner. In fact, the VA blamed veterans' lack of knowledge of when 
their checks should be arriving and the public's misconception of how 
long it takes to process claims for a disproportionate ``perception'' 
of a backlog. Many veterans, new to the GI Bill, reasonably did not 
know that monthly living allowance payments are paid in arrears, at the 
end of the month. IAVA believes that establishing realistic 
expectations for when benefits will be paid and how much those benefits 
will be is the responsibility of the VA and any VSO talking about this 
new GI Bill. However,
    Additionally, IAVA acknowledges that GI Bill claims are seasonal 
and it is natural that the VA's processing time slows down during the 
Fall when veterans apply for general eligibility and schools submit 
enrollment certifications. However, IAVA believes that an average 35 
days processing time is more than a natural slow down and is wholly 
unacceptable regardless of when it occurs because it places an undue 
burden on our veterans.
What are the long-term issues that need to be addressed?
    In truth, the VA and veterans across the country dodged a bullet 
with the Post-9/11 GI Bill. The VA had initially projected upward of 
400,000 veterans seeking benefits under this great new program. Less 
than a quarter of that projected population began going to school this 
year. This was the result of general confusion and the VA's decision to 
grant veterans, who had begun using Chapter 30 (MGIB) benefits, an 
additional 12 months of benefits under the new GI Bill. However, they 
could only take advantage of the New GI Bill after they had exhausted 
their entire MGIB benefits. This resulted in hundreds of thousands of 
veterans continuing to use their MGIB benefits. They did not transfer 
over to the new GI Bill and did not add additional load to the 
system.\1\ If all the projected veterans had applied for their Post-9/
11 benefits and given the VA's inability to process current claims 
quickly, IAVA believes that the wheels would have fallen off of the 
truck.
---------------------------------------------------------------------------
    \1\ In FY 2008 the VA issued 461,259 veterans education benefits. 
Already this year alone the VA is poised to pay 551,923 veterans 
education benefits, only 10 percent of which are Post-9/11 GI Bill 
users.
---------------------------------------------------------------------------
    As stated before, IAVA does not believe that the VA hired enough 
claims processors to handle the new GI Bill. The VA needs to 
immediately reassess their processing capacity and make a realistic 
recommendation to Congress for additional staff. Mandatory overtime is 
not a sustainable solution to ensuring GI Bill checks get out the door 
on time. The VA must also finish training all their claims processors 
in order to maximize the work accomplished from their current 
processing staff.
    The VA also needs to aggressively outreach to and educate veterans 
on this new program to promote the generous new benefits and establish 
realistic expectations. While the VA has done an excellent job 
conducting outreach with the emergency checks, the VA continues to rely 
on a passive ``pull'' presence on the web to explain a complicated and 
lucrative new benefit program overall. The VA does not have the 
internal capacity to mount the large-scale outreach campaign required 
for a program of this magnitude. I have personally witnessed Keith 
Wilson crisscrossing this country attending countless GI Bill forums 
trying to spread the word. There are not just not enough people within 
the VA with Keith Wilson's ability to tell the GI Bill story. Even the 
GI Bill Call Center, the ``one stop shop'' the VA has been directing 
all veterans with GI Bill question to, has been overrun by veterans' 
calls. Wait times can be over 45 minutes because half of the operators 
were pulled to help process claims. The VA needs what the military 
calls a force multiplier, a plan to teach others to spread the word and 
answer questions. This can be accomplished by enlisting veteran service 
organizations, schools, and a cadre of trained GI Bill experts to 
multiply the number of people pushing out good information.
    In the long term the VA continues to implement their plan to 
automate the processing of Post-9/11 GI Bill claims by January 2010. 
However, the VA's most recent experience should raise some red flags. 
The new GI Bill rules keep changing and they will likely continue to 
change for the foreseeable future any automated system must be fluid 
enough to manage these changes. While Congress has only changed the 
Post-9/11 GI Bill once since its passage (the MSGT Fry Scholarship 
program), the VA has issued a steady stream of dramatic changes since 
the final regulations have been published in January. For example they 
created separate tuition and fees caps; granted an additional 12 months 
of benefits to MGIB users; changed transferability requirements and 
altered tuition/fee caps well after the August 1st deadline. 
Unfortunately, the contract for the development of this new automated 
system is predicated on a Post-9/11 GI Bill that remains static and 
unchanged over an academic year. IAVA is deeply concerned that the VA's 
contract to automate these claims does not offer the flexibility 
required to handle necessary upgrades to the Post-9/11 GI Bill.
    At a macro level, there is general agreement that there are too 
many GI Bill benefit programs (Chapters 30, 1606, 1607 and 33) to be 
effectively administered by the VA or understood by veterans. IAVA 
concurs with other VSOs that there should be one ``Total Force'' GI 
Bill and we believe that it should modeled on a streamlined version of 
the Post-9/11 GI Bill. This streamlined new GI Bill should include all 
veterans who were excluded under the new GI Bill (Full-time National 
Guard servicemembers and Vocational/OJT/Apprenticeship students). We 
also believe the tuition and fees portion of the benefit has become 
thoroughly confusing and unwieldy to implement and therefore needs to 
be simplified. Last, distance learners should not be discriminated 
against by denying them a living allowance. We believe that the Post-9/
11 GI Bill, if effectively implemented, will change history and we 
continue to reap benefits for generations to come.

                                 <F-dash>
       Statement of Hon. Ron Klein, a Representative in Congress
                       from the State of Florida
    Mr. Chairman, thank you for calling this important hearing. I am 
here today to bring attention to the experiences that the veterans of 
south Florida have had in the recent implementation of the 21st century 
GI Bill.
    Let me say at the outset that I am grateful that Congress passed 
this legislation, and I was proud to be a sponsor and a strong 
supporter. I strongly believe that those who put on the uniform deserve 
the best benefits when they return--and that includes a quality 
education. The GI Bill for the 21st century will make our veterans an 
integral part of our economic recovery by providing a new generation 
with the education they need to succeed.
    In July, I sponsored a college fair at Broward College in my 
district for veterans who had recently returned from Iraq and 
Afghanistan. I wanted to ensure that they knew about the benefits that 
they would receive and make sure that they were prepared to take 
advantage of them.
    However, some constituents found that benefits were not easily 
processed. One constituent from Boca Raton, Florida has already paid 
for his books out of pocket. The college of his choice gave him an 
extension for tuition payments until November, but cannot register for 
next semester's classes, making it more difficult for him to get the 
required credits for graduation.
    Another constituent from Coconut Creek Florida filed his tuition 
benefits paperwork in July and was told that processing could take 8 
weeks. He began attending classes in August, but unable to pay for his 
tuition, he worries when his check will come.
    I am grateful that Secretary Shinseki and the staff at the 
Department of Veterans Affairs moved quickly to address these issues 
once the problem became apparent. Their swift action was certainly an 
important message to send to our veterans. But, this process should not 
require the intervention of a Member of Congress.
    Mr. Chairman, it was not easy for these veterans to earn these 
benefits; they endured the horrible scars of war. But, it should be 
easy to access these benefits. The 21st century GI Bill is an 
extraordinary opportunity for veterans to return to civilian life and 
follow their dreams. I look forward to working with you Mr. Chairman, 
and the Department of Veterans Affairs to ensure that veterans are paid 
in a timely manner and that we fulfill the promise that we made to our 
Nation's heroes.

                                 <F-dash>
 Statement of Pennsylvania Association of Private School Administrators
    As the Committee knows, the Post-9/11 GI Bill (Chapter 33) created 
an additional education benefit for student veterans on August 1, 2009. 
The new benefit offers a total of 36 months of education benefits, the 
equivalent of four academic years.
    However, the new GI Bill is not fair. Not all Veterans can choose 
the type of education they want and need. Students attending non-degree 
post-secondary education institutions including public vo-techs, some 
career schools, certain nursing schools and apprenticeship programs are 
not eligible for enhanced GI Bill benefits.
    On return to civilian life, many returning servicemembers are 
interested in quickly hitting the ground running. Short-term 
certificate and diploma programs can be a critical part of a successful 
transition. But if they are not offered at a degree granting school, 
then programs in truck driving, aviation maintenance and gunsmithing, 
skills many vets may naturally want to enhance, are not eligible under 
the Post-9/11 GI Bill. Other ineligible programs might include HVAC, 
construction trades, tool and die training and allied medical programs 
such as medical assisting, EMT and para-medical. Even some business 
training programs could be excluded.
    In addition, the current structure requires the serviceman or woman 
to make a decision about whether to be in traditional Montgomery GI 
Bill (Chapter 30) or Chapter 33, which is confusing to many of them, at 
a time when they are in a major transition.
    A growing number of veterans groups have recently stepped forward 
to challenge the exclusion of non-degree granting institutions from the 
Post-9/11 GI Bill. Non-degree institutions and apprenticeship programs 
have always been included in the traditional Montgomery GI Bill 
(Chapter 30) so why should Chapter 33 be different? After a veteran has 
bravely served their country, they should be allowed to pursue their 
next career at the school of their choice.
    The Pennsylvania Association of Private School Administrators 
represents the more than 320 private career colleges and schools in the 
Commonwealth. PAPSA is the only association representing all for-profit 
colleges and schools in Pennsylvania. With over 150 school members, 
PAPSA is the unified voice of quality career school education.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   October 19, 2009

Mr. Keith M. Wilson
Director, Office of Education Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Keith:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on VA Status Report on Post-9/11 GI Bill on October 15, 2009. 
Please answer the enclosed hearing questions by no later than Monday, 
November 30, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
JL/ot

                               __________

                        Questions for the Record
                     Hon. Stephanie Herseth Sandlin
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                 VA Status Report on Post-9/11 GI Bill
                            October 15, 2009
    Question 1: According to your testimony, many States determined 
their operating budgets in July/August which meant institutions 
determined their tuition and fees until late August. Did the 
institutions delay in establishing their tuition and fees have a 
significant effect on the VA's distribution of checks?

    Response: Since the Department of Veterans Affairs (VA) could not 
establish the highest in-State undergraduate tuition and fee rates for 
the Post-9/11 GI Bill until public institutions reported their rates, 
there was a delay in distributing checks to students at institutions in 
those States. VA could not begin processing any claims until we had 
valid tuition and fee rates established for the 2009-2010 academic 
year.

    Question 2: It currently takes 1\1/2\ hours to process an original 
claim. How can we help the VA improve or expedite the processing time?

    Response: VA looks forward to discussing ways to improve the 
administration of the Post-9/11 GI Bill with Congress and appreciated 
being able to participate in the roundtable discussion on Veterans' 
educational issues with the Subcommittee on Economic Opportunity, House 
Committee on Veterans' Affairs, on December 3, 2009. However, the 
interim IT solution or the long-term solution will be deployed June 30, 
2010, which will provide automated support for many of the activities 
involved in the 1\1/2\ hour processing time.

    Question 3: Does VA have a media campaign to educate veterans and 
their dependents about the Post-9/11 GI Bill?

    Response: VA has an extensive communication strategy and plan that 
was implemented in June 2008. In accordance with the plan, VA used a 
multilayered, multiple channel approach to educate both Veterans and 
dependents about the new Post-9/11 GI Bill. This included traditional 
outreach mechanisms such as direct mailings, pamphlets and brochures, 
as well as new media, including web postings and social networking. As 
part of that plan, in September 2009 VA contracted American Independent 
Media, a professional marketing firm, to develop a media campaign that 
will use print, electronic, and news media to reach out to Veterans and 
their dependents. This contract includes a redesign of the GI Bill Web 
site. The campaign is scheduled to launch before the 2010 fall 
enrollment period.

    Question 4: Has VA considered asking VSOs for assistance in 
disseminating information about the GI Bill?

    Response: VA recognizes that VSOs are a vital stakeholder and serve 
as a direct channel to our Veterans, and they are already assisting in 
disseminating information about the GI Bill. VA personnel have traveled 
to many VSO conferences around the country to speak about the Post-9/11 
GI Bill. VA also partnered with American Legion to prepare an 
informational video on the Post-9/11 GI Bill. As a result, more 
Veterans are aware of these benefits.

    Question 5: What roles are the State Approving Agencies playing in 
helping VA educate veterans and schools?

    Response: The fiscal year (FY) 2009 State Approving Agency (SAA) 
contracts include requirements to support the Post-9/11 GI Bill. While 
the role of the SAAs generally remains the same, the contract requires 
SAAs to perform duties that support all other VA education programs in 
addition to the Post-9/11 GI Bill.
    The SAAs have expanded outreach efforts to ensure awareness of the 
Post-9/11 GI Bill, and VA recently utilized the SAAs to verify their 
States' highest in-state public school tuition and fee rates for the 
2008-2009 and 2009-2010 academic years to support the Post-9/11 GI 
Bill.
    VA requested that SAAs complete an outreach questionnaire in April 
2009 on specific efforts they were conducting related to the Post-9/11 
GI Bill. The questionnaire responses and the outreach visit reports 
indicate SAAs are performing specific outreach for the Post-9/11 GI 
Bill. Some examples are: a 6-week radio campaign that highlighted the 
Post-9/11 GI Bill; letters regarding the Post-9/11 GI Bill provided at 
Transition Assistance Program (TAP) briefings; newsletters; Governor's 
letters to recently discharged Veterans; articles in local 
publications; presentations on the Post-9/11 GI Bill at school 
conferences, job fairs and Veterans and military resource fairs; and 
presentations to military and Veterans groups.

    Question 6: Secretary Shinseki mentioned an emergency run-through 
of its information technology system in January 2010, in preparation of 
the spring 2010 term. Can you provide us more information on this?

    Response: The development of the long-term information technology 
processing solution is on schedule. At this time, VA does not have a 
scheduled emergency run-through of the IT system. During his testimony, 
Secretary Shinseki indicated VA would approve more emergency checks 
during the spring enrollment period should the situation warrant it. He 
referred to this future effort as an ``emergency exercise.''

    Question 7: According to the Secretary's recent full Committee 
testimony, once phase three is established the current backlog will be 
cleared out. When do you expect for the backlog to be cleared out?

    Response: Since the education workload is seasonal, VA anticipates 
another influx of claims during the spring enrollment period, 
particularly with the new Post-9/11 GI Bill. VA took aggressive action 
to eliminate the backlog of fall enrollments and is using all available 
resources to ensure Veterans receive their education benefits for the 
spring terms accurately and on time. Over 60,000 claims for the spring 
term have already been processed. In 2010, we will begin incremental 
deployment of a more robust IT system that will make the benefits-
delivery process simpler and more efficient.

    Question 8: In your written testimony you state that phase three of 
the interim solution was scheduled for deployment in September 2009, 
due to the difficulty in integrating multiple actions such as amending 
awards and overlapping terms, led to rescheduling phase three 
deployment for November 2009. How will this affect the timely 
distribution of checks?

    Response: The delay in deployment of phase three of the interim 
solution caused a delay in issuing payment on amended awards and 
overlapping terms. These types of awards can now be completed with the 
same timeliness as all others. However, since the interim solution will 
not materially improve the speed of processing, the overall effect of 
deploying phase three on timely distribution of checks will be 
moderate. VA expects to begin seeing significant improvements in 
timeliness with the deployment of the long-term solution in June 2010, 
with plans to reduce the average days to complete original education 
claims to 18 days by the end of FY 2011.

    Question 9: The Committee has received calls from frustrated 
Veterans unable to reach a VA official when calling for answers to 
their pending education claims. In your testimony you mentioned that 
the VA hired and redirected a total of 57 term personnel to the 
Education Call Center (ECC).

    a.  How long is the average wait time to connect? What is the 
dropoff percentage rate?
    b.  How long will you have these resources available and will you 
need additional resources from Congress?
    c.  You mentioned that VA has expanded its phone hours, what are 
your expanded phone hours?
    d.  What is the total number of operators that are currently 
manning the GI Bill Call Center?

    Response: In September 2009, the average wait time was 5 minutes, 
46 seconds. In October 2009, the average wait time was 7 minutes, 7 
seconds. The abandoned call rate was 19.3 percent in September 2009, 
and 23.2 percent in October 2009.
    Term personnel can be extended up to 4 years. We are committed to 
providing the best possible service to our Veterans and will ensure 
appropriate resources are requested and allocated to meet this 
challenge.
    VA currently has 190 employees at the ECC answering phones Monday 
through Wednesday, 7:00 am to 5:00 pm, Central Standard Time. As we 
receive the anticipated influx of spring enrollments, the Call Center 
employees will temporarily perform claims processing tasks on Thursdays 
and Fridays to help ensure timely delivery of benefits for the upcoming 
terms.

    Question 10: On Wednesday's full Committee Hearing, we heard from 
several Members proposing legislative fixes to make your job easier in 
the future. Do you have a list of legislative fixes you recommend this 
Subcommittee consider in the near-term and others you would like for us 
to consider as we seek to streamline all education benefits?

    Response: VA looks forward to discussions with Congress on ways to 
improve the administration of the Post-9/11 GI Bill. We do not 
recommend the Subcommittee consider any legislative fixes in the near 
term due to the limitations in our short-term initiative to process 
claims. The challenge for future legislative fixes is making sure that 
they do not disrupt our ability to pursue timely rollout of the long-
term processing solution.

                                 <all>

</pre></body></html>
